CERTIFICATE OF WORD COMPLIANCE
I hereby certify that my Petition for a Writ of Certiorari complies with the word
count requirements of the Rule of the Supreme Court of the United States
Procedure 33(d) subparagraphl(g) and contains 3,510 words. I declare under
penalty of perjury under that the foregoing is true and correct.

Executed on

Chris George
102 Est. Diamond Plot 74
Frederiksted, V.I. 00840
Telephone# (340)227-9206
Email address: georgechris61@yahoo.com

Sworn before me on this

l"\

day, December 2018

At.,C,A SYKES'-----Notary Public
^Commission Expires Mav 13,2019

